OFFICE OF INSPECTOR GENERAL
                     Audit Report
Audit of Payment Controls over Railroad Medicare Claims
            Submitted by Physical Therapists



        This abstract summarizes the results of the subject audit.
        The full report includes information protected from disclosure
        and has been designated for limited distribution pursuant to
        5 U.S.C. § 552




                        Report No. 14-07
                         May 16, 2014




   RAILROAD RETIREMENT BOARD
                                REPORT ABSTRACT
       Audit of Payment Controls over Railroad Medicare Claims Submitted by
                                Physical Therapists


The Railroad Retirement Board (RRB), Office of Inspector General (OIG) conducted an
audit of payment controls over Railroad Medicare claims submitted by physical
therapists. Since April 2000, the RRB has contracted with its nationwide contractor
Palmetto GBA, LLC (Palmetto) to process the Medicare Part B claims for Qualified
Railroad Retirement Beneficiaries. As of September 28, 2012, Palmetto was awarded
contract responsibilities as the Railroad Specialty Medicare Administrative Contractor.

The objective of the audit was to determine if physical therapy licensure requirements
have been met by those providers that have submitted Railroad Medicare claims and
that controls and edits are in place to ensure that only payments to authorized providers
are processed.

The RRB-OIG identified four control weaknesses:

   •    Palmetto does not authenticate Railroad Medicare provider licenses. Unlicensed
        physical therapists identified in our testing received Railroad Medicare payments
        of $55,205. Statistical testing identified a national physical therapist licensing
        error rate of 4.3% with estimated improper payments totaling $1.8 million.
   •    Palmetto does not have adequate controls to ensure that payments are made
        only to authorized Railroad Medicare providers. Some providers identified in our
        sample performed physical therapy services and received Railroad Medicare
        payments of $154,631 using invalid Railroad Medicare provider numbers. Our
        non-statistical analysis of physical therapists provider numbers identified a
        nationwide error rate of 30% with estimated improper payments totaling $12.5
        million.
   •    Railroad provider practice locations are not authenticated. An estimated 24% of
        the provider number records, for physical therapists enrolled in Railroad
        Medicare, have not been updated with the validated Centers for Medicare and
        Medicaid Services’ practice location addresses.
   •    Physical therapy providers subject to disciplinary action by their state medical
        board are not identified and monitored. Our audit showed that some of these
        providers were under probation for serious malpractice or licensure violations.




                                             1
To address the identified weaknesses, we made 10 detailed recommendations on how
RRB officials should work with Palmetto officials to ensure that Palmetto:

   •   implements additional compensating controls for ensuring Railroad Medicare
       providers are licensed and initiate post payment recovery where the provider was
       not licensed or their provider number was invalid;
   •   establishes a process or automated reconciliation for ensuring that all Medicare
       Administrative Contractor revocation dates and validated practice locations are
       entered timely in the Railroad Medicare enrollment system; and
   •   develops controls for ensuring providers with state imposed disciplinary actions
       are monitored.

The RRB’s Office of Programs has agreed to work with Palmetto to take corrective
action on seven of our ten recommendations. However, they have not agreed to work
with Palmetto to take corrective action on two of our recommendations related to the
post payment recovery of estimated improper payments totaling $1.8 million and $12.5
million.

In addition, the Office of Programs has not agreed to work with Palmetto to take
corrective action on our recommendation related to Railroad Medicare providers subject
to state disciplinary actions.




                                            2
